                                                   NATIONAL'SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I04090032
                                                                                      11            Page 1 of 1



    NSF OIG received a complaint from an awardee' reporting a possible theft involving a former
    employee: (Subject). Our investigation determined that while employed by the awardee, the
    Subject misused her corporate c d i t card3to make hudulent transactions which she then
    charged to both NSF and Department of Energy awards.

     OIG referred the matter to the United States Attorney's office: which accepted this matter for
     prosecution and assigned an Assistant United States Attorney (AUSA) to this matter.

     The Subject's defense attorney then negotiated a plea agreement6 that resulted in the Subject
     pleading to Count One of a Federal indictment7,charging her with Mail Fraud, in return for
     dismissing the remaining six counts. The Subject signed the plea agreement on February 12,
     2007, and appeared in Federal Court on March 26,2007, to enter the guilty plea.

     On June 25,2007, the Subject appeared in Federal Court for sentencing. The United States
     District Judge imposed a sentence8that included 16 months incarceration to be followed by 3
     years of supervised release. Additionally, the Judge ordered the Subject to pay a special
     assessment fee of $100 and make restitution in the amount of $18,214.15.

     On September 10,2007, OIG submitted a report to NSF with a recommendation that the Subject
     be debarred for a period of 5 years. On January 10,2008, NSF issued a Notice of Proposal of
     Debarment advising the Subject that NSF was proposing to debar her for a period of 3 years. On
     February 26,2008, NSF issued a final debarment notice9to the Subject advising her she has been
     debarred until February 15,201 1.

     Accordingly, this case is cbsed.



     1
      University Corporation for Atmospheric Research (UCAR), a non-profit consortium located in Boulder, Colorado.
     2
      Jennifer DeLaurant, administrative assistant. Her employment began in November 1998 and ended in July 2004.
      The Subject was given a Visa credit card for the purpose of making purchases for and on behalf of UCAR, part of
     her job responsibilities.
      District of Colorado (USAO-DCO)
     'Thomas O'Rourke, Chief, Criminal Fraud Section
      See Tab # 1-Plea Agreement dated 2/14/2007
     'See Tab #2-Indictment dated 12/19/2006
      See Tab #3-Judgement in a Criminal Case dated 6/25/2007
      See Tab #4-Notice of Debarment dated 2/26/2008
                                NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                   ARLINGTON, VIRGINIA 22230




                                          FEB 2 6 2008
   OFFICE OF THE
  DEPUTY DIRECTOR




VIA CERTIFIED MAIL - RETURN RECEIPT REQUESTED

Ms. Jennifer DeLaurant
Register Number 34647-0 13
Federal Medical Center
P.O. Box 27 137
Fort Worth, TX 76127

       Re: Debarment

Dear Ms. DeLaurant:

On January 10,2008, the National Science Foundation ('NSF") sent you a Notice of Proposed
Debarment in which NSF proposed to debar you from directly or indirectly obtaining the benefits
of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
giving rise to NSF's decision to propose your debarment. Specifically,NSF indicated in the
Notice that the proposed debarment is based upon your plea of guilty for mail fraud, in which
you misappropriated NSF funds for your own use. In that Notice, NSF provided you with thirty
days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until February 15,2011. Debarment precludes you from receiving Federal financial and
non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CFR Section 180.135. Non-procurement transactions include grants,
cooperative agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees,
subsidies, insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for the period of this
debarment. 2 CFR Section 180.170. During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or critical influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Government.

If you have any questions regarding the foregoing, please contact          , Assistant General
Counsel, National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.




                                                    Sinc?rely,



                                                    Kathie L. Olsen
                                                    Deputy Director
                                       NATIONALSCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




       OFFICE OF THE
      DEPUTY DIRECTOR




    CERTIFIED MAIL --RETURN RECEIPT REOUESTED

    Ms. Jennifer DeLaurant
    Register Number 34647-0 13
    Federal Medical Center
I
    P.O. Box 27137
I
    Fort Worth, TX 76 127


           Re: Notice of Proposed Debarment
                               :   *




    Dear Ms. DeLaurant:

    This letter serves as formal notice that the National Science Foundation ("NSF") is proposing to
    debar you from directly or indirectly obtaining the benefits of Federal grants for a period of three
    years. During your period of debarment, you will be precluded from receiving Federal financial
    and non-financial assistance and benefits under non-procurement Federal programs and
    activities. In addition, you will be prohibited fiom receiving any Federal contracts or approved
    subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly, during your debarment
    period, you are barred from having supervisory responsibility, primary management, substantive
    control over, or critical influence on, a grant, contract, or cooperative agreement with any agency
    of the Executive Branch of the Federal Government.

    Reason for Debarment

    Your debarment is based upon a referral fiom NSF's Office of Inspector General ("OIG).
    NSF's record demonstrates that you pleaded guilty to a charge of mail fraud, in which you
    misappropriated NSF funds for your own use. You were sentenced to sixteen months in prison,
    followed by three years of court-ordered supervision. In addition, you were ordered to pay
    restitution in the amount of $32,45 1.91.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(a) Conviction of or civil judgment for -

(1) Commission of fraud or a criminal offense in connection with obtaining, attempting to obtain,
or performing a public or private agreement or transaction; or


(3) Commission of embezzlement, theft, forgery, bribery, falsification or destruction of records,
making false statements, tax evasion, receiving stolen property, making false claims, or
obstruction of justice; or

(4) Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects your present responsibility.

In any debarment action, the government must establish the cause for debarment by a            -
preponderance of the evidence. 2 CFR 180.850. If, as in this case, the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met. Id. Therefore, your
conviction for mail fraud supports a cause for debarment under 2 CFR 180.800(a)(1),(3), and (4).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR 180.860, we
are proposing debarment for a period of three years.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.855 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writing, or though a representative, information and argument in opposition to
this debarment. 2 CFR 180.860. Please note, however, that because your debarment is based on
a conviction, you will not have an opportunity to challenge the facts underlying the conviction.
2 CFR 180.830(a). Comments submitted within the 30-day period will receive full consideration
and may lead to a revision of the recommended disposition. If NSF does not receive a response
to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia, 22230. For your information, we are attaching a copy of the Foundation's regulations .
on non-procurement debarment and FAR Subpart 9.4.




                                                    Sincerely,


                                                    Kathie L. Olsen
                                                    Deputy Director


Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
                              NATIONAL SCIENCE FOUNDATION
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230

                                    September 10,2007


    OFFICE OF
INSPECTOR GENERAL




            To:     Dr. Arden L. Bement, Jr.




     Subject:       Debarment of Jennifer Lee DeLaurant


             Attached is our summary of the facts related to the criminal conviction of
      Jennifer Lee DeLaurant, former Administrative Assistant at the University
      Corporation for Atmospheric Research (UCAR), for mail fraud resulting in a
      financial loss to UCAR and the Federal Government totaling $18,214.15.

             We recommend that NSF debar Ms. DeLaurant for a period of five years.
      We believe this action will adequately protect NSF's interests. Our recommended
      action is described in detail in the attached report. Based on her criminal
      conviction, the subject was not provided with a copy of this report nor was she
      provided an opportunity to comment.

            If you have any questions about the report or our recommendation, I would
      be happy to discuss them with you. My staff point of contact for this matter is
      James Evans at 703-292-7398.



      cc:     Lawrence Rudolph, General Counsel
    National Science Foundation
      Office of Inspector General




                     Confidential
                Investigation Report
               Case Number 1-04090032
                      September 10,2007


This Confidential Investigation Report is the property of the NSF OIG and may be disclosed outside
   NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$552,552a.

                                                                                 NSF OIG Form 22b (1 1/06)
1) OIG INVESTIGATION
   a) Factual Background:

                NSF OIG received a complaint fiom the Vice President of Finance and Administration
        at UCAR*reporting a possible theft involving a former UCAR employee, Jennifer Lee
        ~ e ~ a u r a(Subject).
                      nt~       Our investigation determined that while employed by UCAR, the
        Subject misused her corporate credit card'' to make fraudulent transactions which she then
        charged to the NSF and DOE accounts. The Subject's conduct began on November 18,2003,
        and continued until July 22,2004, at which time the theft was discovered by UCAR officials.
        During that time, the Subject used her corporate credit card to make approximately 90
        unauthorized purchases for her own use and benefit. These purchases included Apple@
        iPods@, books, camping supplies, household items such as hand-painted bowls, a swimming
        pool cover, and a dog bed and were made online from different vendors from the Subject's
        office computer at UCAR.

                After making a purchase, the Subject was required to make entries in UCAR's online
        purchase tracking system1 describing the item purchased and designating a fund from which
        the transaction was to be paid. The Subject made various misrepresentations in the entries to
        disguise the fact they were unauthorized purchases of personal items12resulting in the items
        being improperly charged to projects supported by Federal funds fiom both NSF and DOE
        awards. The Subject designated three accounts from which her unauthorized purchases were
        to be paid:13including $8,677.37 fiom NSF funds; $6,451.59 fiom DOE funds; and $2,781.02
        to UCAR's general funds.

                Between June 8,2004, and July 22,2004, the Subject used e B a 9 to sell most of the
        iPods@and received approximately $10,371.81 fiom those sales.14 She then used UCAR's
        FedExB account to ship the items to her customer^.'^ UCAR terminated the Subject on July
        23,2004. NSF and DOE OIG agents interviewed the Subject on September 25,2005 during
        which she admitted to making the purchases and provided the agents with a sworn affidavit
        outlining her actions.

     b) Referral to the Department of Justice:

        OIG concluded that the Subject violated criminal statutes,16and therefore referred the matter
        to the United States Attorney's Office for the District of Colorado (USAO-DCO), which

* UCAR is a non-profit consortium that focuses on scientific research and is located in Boulder, Colorado.
    The Subject was employed as an administrative assistant. Her employment began in November 1998.
lo   The Subject was given a Visa credit card for the purpose of making purchases for and on behalf of UCAR, part of her
job responsibilities.
"    PaymentNET
 l 2 The misrepresentations were as follows: books were entered as having been bought for UCAR scientists or other
employees, a canister set was entered as an "optical mouse"; iPods0 were described as "disk drives" and "power
supplies."
 l3 These amounts do not include the $304.17 for unauthorized FedEx charges included in the court-ordered restitution.
 l4 The Subject kept the proceeds of those sales for her own use and benefit.
 l5 The Subject did not have permission or authorization from UCAR to use the FedExB account; $304.17 in charges were
incurred.
 l6 18 U.S.C. $1341, and 18 U.S.C. $666.
        accepted this matter for prosecution and assigned an Assistant United States Attorney (AUSA)
        to this matter. l 7

        The AUSA contacted the Subject in an attempt to obtain a pre-indictment plea agreement.
        After initially indicating a desire to resolve this matter through a plea agreement, the Subject
        engaged in a pattern of delay tactics and attempts to use an unrelated injury as reason to delay
        resolving this matter. Afier months of unsuccess~lattempts to agree on a plea, the AUSA
        obtained a criminal indictment on December 19,2006, charging the Subject with seven counts
        of Mail Fraud.

        The Subject's defense attorney then negotiated a plea agreement that resulted in the Subject
        pleading to Count One of the indictment, charging her with Mail Fraud, in return for
        dismissing the remaining six counts. The Subject signed the plea agreement on February 12,
        2007, and appeared in Federal Court on March 26,2007, to enter the guilty plea.

        On June 25,2007, the Subject appeared in Federal Court for sentencing. The United States
        District Judge imposed a sentence that included 16 months incarceration to be followed by 3
        years of supervised release. Additionally, the Judge ordered the Subject to pay a special
        assessment fee of $100 and make restitution in the amount of $18,214.15.

2) OIG ASSESSMENT

     a) Debarment

        Subject's Actions
              The Subject committed a criminal act by knowingly devising a scheme to defraud or
              obtain money or property by means of false pretenses, representations or promises.
              The Subject caused another person to send something through a private or commercial
              interstate carrier for the purpose of carrying out the scheme.
        Subject's Intent
              The Subject knowingly misrepresented the descriptions of the items purchased to
              UCAR with specific intent to defiaud or to obtain money or property by means of false
              pretenses, representations or promises.
        Burden of Proof
              In debarment actions, the burden of proof lies with the acting agency (NSF) to
              demonstrate by a preponderance of the evidence that cause for debarment exists.'* In
              this matter the preponderance of the evidence indicates that the Subject purposely and
              willfully violated Title 18, Section 1341 of United States Criminal Code. The Subject's
              guilty plea resulted in her conviction for the commission of a criminal offense in
              connection with performing a public or private agreement or transaction. l9 Further, the
              Subject's actions indicate a lack of business integrity and honesty that seriously and
              directly affects her present responsibility to manage Federal funds.*'


" Thomas O'Rourke,
'' 2 C.F.R. $180.850, and 2 C.F.R. $180.855.
                     Chief, Criminal Fraud Section

   2 C.F.R. $ 180.800 (a) (1).
*' 2 C.F.R. $ 180.800 (a) (4).
l9
                    Relevant Factors

                    The debarment regulation lists 19 factors that the debarring official must ~onsider.~'
                    Listed below are the factors pertinent to this case.

                        Actual or Potential Harm or                   - The Subject's actions resulted in a
                        financial loss to UCAR, NSF and DOE totaling $18,214.15.
                        Frequency or Duration of ~ n c i d e n t -    s ~The
                                                                          ~ Subject niade more than 48
                        purchases that include a total of more than 90 individual items with the UCAR
                        credit card and converted those items for her own personal use.
                        Pattern of                       The Subject made 48 fraudulent purchases over a
                        period of 9 months before the discovery of her scheme brought it to an end.
                        Role in ~ r o n g d o i n g ~ ~ - TSubject
                                                            h e planned, initiated, and carried out the
                        wrongdoing herself.
                        Acceptance of ~esponsibili#~-The Subject accepted responsibility by entering a
                        guilty plea before the court.
                        ~ e ~ a ~ m e n t ~ ' -Subject
                                                T h e has been ordered by the Court to make restitution in the
                        amount of $18,214.15.
                        Cooperation of the subject2'- The Subject agreed to be interviewed by OIG
                        investigators and initially denied any involvement in the fraudulent purchases.
                        However, after being presented with evidence of her involvement gathered by the
                        investigators, the Subject subsequently admitted responsibility for making the
                        purchases and provided a sworn affidavit describing her actions. The Subject
                        indicated a desire to resolve the criminal charges by entering an agreement to plead
                        guilty, however she continually delayed accepting an agreement, requiring DOJ to
                        seek an indictment. Only after the Subject was indicted did she negotiate a plea
                        agreement.
                        Position Held by                  - The Subject used her position as an administrative
                        assistant, with control over the data entry of purchasing and the authority to use a
                        corporate credit card to facilitate the commission of her offense.
                        Organizational ~ c t i o n -   ~ The
                                                         '    Subject was dismissed from her position with
                        UCAR on July 23,2004.
                        Other Factors (Criminal Penalties                     - The Subject accepted a plea
                        agreement on February 12,2007, resulting in a guilty plea to one count of mail




"2    C.F.R. $ 180.860.
22   2 C.F.R. $ 180.860 (a).
23   2 C.F.R. $180.860 (b).
     2 C.F.R. $ 180.860 (c).
''
24
     2 C.F.R. $ 180.860 (f).
26   2 C.F.R. $ 180.860 (g).
     2 C.F.R. $ 180.860 (h).
''
27
     2 C.F.R. $180.860 (i)
29   2 C.F.R. $ 180.860 (k)
30   2 C.F.R. $ 180.860 (1)
3'   2 C.F.R. $180.860 (s)
                      fraud resulting in a sentence of 16 months; an assessment of $100.00; no fine; and
                      restitution in the amount of $18,214.15.32

2) Recommendations
      Despite the Subject's sentence, she continues to possess the skills to be hired in a position
      administering federal awards. In order to further protect the interests of the public and the
      NSF, we recommend that NSF debar the Subject for 5 years.33




'* The restitution amount includes: $17,909.98, the total amount actually charged to the credit card plus $304.17, the
unauthorized FedExB costs.
33 2 C.F.R. 5 180.800 et seq,
